                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL 

                                 Washington, DC 20416 


                                                                      AUDIT REPORT
                                                              Issue Date: October 18, 2005

               Darryl Hairston
                                                              Report Number: 6-03
TO:
               M:sistant 4\.dministrator for Administration
               [FOIAex.6]
FROM:          Robert Seabrooks
               Assistant Inspector General for Auditing


SUBJECT:       Single Audit of Greenpoint Manufacturing and Design Center, June 1, 2004


       We received a copy of the single audit report for Greenpoint Manufacturing and Design
Center (GMDC) for the sixteen month period ended December 31, 2003. Based on our initial
review, we believe the audit performed by Lutz and Carr Certified Public Accountants (CPA),
meets OMB Circular A-I33 reporting requirements.

       Attached are excerpts from the report pertaining to the CPA's findings and
recommendations for your action in accordance with SOP 20 35, "Audit Follow up System."
The auditee has provided a corrective action plan in response to a prior year audit finding.
However, in light ofthe CPA's recent finding, we recommend that the Assistant Administrator
for Administration take appropriate action in accordance with relevant OMB guidance.

       In accordance with SOP 20 35, you have 80 calendar days from the date of this
memorandum to decide on what actions the Agency proposes to take to address the audit
fmdings and recommendations. Your proposed actions should be documented on the attached
Recommendation Action Sheet (SBA Form 1824) in the management decision section of the
form. The Office of Inspector General must concur with your management decision before it
may be issued as a final determination and is implemented. Please copy our office when the
audit determination letter is sent to the auditee and include the above audit report number for all
correspondence relating to this audit.

       If a complete copy of the audit report is needed, or if you have any questions, please 

contact James E. Foreman at (202) 205- [FOIA ex. 2] 


Attachments

cc: Jeff Brown, OCFO (w/attachments)
                          Summary of Finding and Recommendation

A prior year audit fmding (from the single audit report for the year ended August 31, 2002)
identified that GMDC did not comply with the requirement of documenting salaries by
maintaining personnel activity reports and approved employee salary authorizations. In addition,
monthly cash requisitions utilized budgeted, not actual salaries. This finding resulted in the
auditors questioning costs of$331,489.

GMDC provided a corrective action plan stating that it was in the process of designing a system
to track grant-related activity by employee. Additionally, GMDC stated that all staff salaries
would be authorized by the organization's CEO within 30 days. Further, beginning in September
2002, GMDC would use actual rather than budgeted salaries for all reimbursements. However, a
subsequent single audit report (for the period ended December 31, 2003) also identified that
GMDC's employees submitted weekly activity reports that were not in compliance with the
requirement of documenting salaries by maintaining personnel activity reports. As a result, the
auditors questioned costs of $347,692.


       P eno
           . dE n d e d       E xpen d·tu
                                      I   res             Questionedeosts        P ercent
     December 31,              $500,000                      $347,649            70%
     2003
     August 31, 2002           $768,649                      $331,489            43%
     Total                   $1,268,649                      $679,181
    I"         """"                    """      ""   ""        """          "               ""




We believe this shows that GMDC did not fully implement the corrective actions they had
planned when the deficiency was first identified in 2002. As a result ofthe 2002 single audit, we
issued report number 04-24, and concurred with management decision's not to take further
action since the grant was no longer active and had been officially closed out. However, in light
of the CPA's recent fmding, we recommend that the Assistant Administrator for Administration
take appropriate action in accordance with relevant OMB guidance. In accordance with OMB
Circular A-122 cited below, at a minimum, the grantee should be requested to provide proper
documentation to support the questioned costs, including signed personnel certifications oftime
and effort (activity reports), if appropriate or to refund the amounts questioned.

OMB Circular A-IIO, Section 71, Closeout procedures (g), states that in the event a final audit
has not been performed prior to the closeout of an award, the Federal awarding agency shall
retain the right to recover an appropriate amount after fully considering the recommendations on
disallowed costs resulting from the final audit. With regard to GMDC, a close out audit on the
first grant was not performed, and the finding from the most recent single audit justify follow up
action on behalf of the Office of Administration to determine if salaries and expenses paid under
the grant were valid and in accordance with the grant provisions. In addition, OMB A-I22,
Attachment B, provides principle to be applied in establishing the allowability of certain items of
cost. Specifically, it states in sub paragraph 7 (M), which the distribution of salaries and wages
to awards must be supported by persOlmel activity reports or a substitute system has been
approved in writing by the cognizant agency.
